‘mare a,

No. 19-893

IN THE SUPREME COURT OF THE UNITED STATES

SHIMON WARONKEER, Petitioner
v.

HEMPSTEAD UNION FREE SCHOOL DISTRICT, et al.

CERTIFICATE OF SERVICE
I hereby certify that on this 4th day of February, 2020, I caused one copy of
this letter seeking an extension of time within which to file a brief in opposition to
be served by U.S. mail on the following counsel for petitioner:

Erwin Chemerinsky

University of California, Berkeley School of Law
215 Boalt Hall

Berkeley, CA 94720

(510) 642-6483

echemerinsky@law.berkeley.edu

Counsel for Petitioner Shimon Waronker

   
    

Pursuant to this Court’s B certify that all parties required to be

served have been served.

Austin Graff
Counsel for Respondents Hempstead Union Free
School District, the Board of Education of the
Hempstead School District, David B. Gates, in his
individual and official capacity, Randy Stith, in his
individual and official capacity, Lamont E. Jackson,
in his individual and official capacity, and Patricia
Wright, as a necessary party in her capacity as
Clerk of the Hempstead School District

 
OZLPE BIUIOTTED ‘Aopyog,

TPH 30g STZ

Mey

Jo Jooypg Aapyieg ‘eruzoyyeg so AIsteatuyy
AYSULIOMIAYO ULI

    

PLSLLAGODdIZ WON G3TIVW F
0Z0Z ¥0 G34 G6LL0C0000 3

oso00g 1°

semou ae A
Se I tS

eg

“Sou 53"

 

PISIEAN '39v1d 31uv2
SBE 3LINS ‘AVON ANLNNOD G10 3NO

d11 ‘Waly Mv YBHOS 3HL
